                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A12050035                                                                        Page 1 of 1




                 Our office received an allegation that the proposal 1 of aPe contained plagiarized material.
         Our review of the matter determined that the allegation was not substantiated. Accordingly, this case
         is closed with no further action taken.




          2




NSF OJG Form 2 (I 1/02)
